   DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                       Washington, D.C. 20201




March 18, 2011

TO:           Yolanda J. Butler, Ph.D.
              Acting Director
              Office of Community Services
              Administration for Children and Families


FROM:         /Lori S. Pilcher/
              Assistant Inspector General for Grants, Internal Activities,
                and Information Technology Audits


SUBJECT:      Review of West Virginia’s Governor’s Office of Economic Opportunity’s Internal
              Controls for Assessing and Monitoring Community Services Block Grant
              Program Funds Received Under the American Recovery and Reinvestment Act
              (A-03-10-00250)


Attached, for your information, is an advance copy of our final report on West Virginia’s
Governor’s Office of Economic Opportunity’s internal controls for assessing and monitoring of
Community Services Block Grant program funds received under the American Recovery and
Reinvestment Act. We will issue this report to West Virginia’s Governors’ Office of Economic
Opportunity within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov or Stephen Virbitsky, Regional
Inspector General for Audit Services, at (215) 861-4470 or through email at
Stephen.Virbitsky@oig.hhs.gov. Please refer to report number A-03-10-00250.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                          Office of Audit Services, Region III
                                                                          Public Ledger Building, Suite 316
                                                                          150 S. Independence Mall West
                                                                          Philadelphia, PA 19106-3499




March 22, 2011

Report Number: A-03-10-00250

Ms. Julie Alston
Executive Director
Governor’s Office of Economic Opportunity
950 Kanawha Boulevard East, Third Floor
Charleston, WV 25301

Dear Ms. Alston:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of West Virginia’s Governor’s Office of Economic
Opportunity’s Internal Controls for Assessing and Monitoring Community Services Block Grant
Program Funds Received Under the American Recovery and Reinvestment Act. We will forward
a copy of this report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-03-10-00250 in all correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Julie Alston


HHS Action Official:
Oscar Tanner
Director, Division of Financial Integrity
6th Floor East Wing, Aerospace Building
370 L’Enfant Plaza Promenade S.W.
Washington, D.C. 20447
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL

 REVIEW OF WEST VIRGINIA’S
   GOVERNOR’S OFFICE OF
  ECONOMIC OPPORTUNITY’S
  INTERNAL CONTROLS FOR
 ASSESSING AND MONITORING
 COMMUNITY SERVICES BLOCK
   GRANT PROGRAM FUNDS
    RECEIVED UNDER THE
  AMERICAN RECOVERY AND
     REINVESTMENT ACT

                      Daniel R. Levinson
                       Inspector General

                         March 2011
                        A-03-10-00250
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was reauthorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P. L. No.
105-285, to provide funds to alleviate the causes and conditions of poverty in communities.
Within the U.S. Department of Health & Human Services (HHS), the Administration for
Children and Families (ACF), Office of Community Services administers the CSBG program.
The CSBG funds a State-administered network of eligible local entities, including more than
1,000 Community Action Agencies (CAA), that create, coordinate, and deliver programs and
services to low-income Americans. States received $680 million each of years 2009 and 2010
through the CSBG program.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate the causes and conditions of poverty in communities.

Community Services Block Grant Program in West Virginia

Section 676(a) of the CSBG Act requires each State to designate an appropriate State agency to
act as the lead agency for carrying out the State’s CSBG activities. In West Virginia, the
Governor’s Office of Economic Opportunity (the State agency) is the CSBG lead agency.

For each of fiscal years (FY) 2009 and 2010, the State agency received approximately $7.8
million in regular CSBG funds. The State agency also received a one-time grant of $11.2 million
in Recovery Act CSBG funds. During this period, the State agency oversaw 16 eligible CAAs.
Of the $26.8 million total, $25.1 million was passed through to the 16 CAAs. The State Agency
retained approximately $1.7 million to monitor the CAAs’ compliance with applicable Federal
requirements and performance goals.

Federal Requirements

Pursuant to section 678(B)(a) of the CSBG Act, the CSBG lead agency must conduct a full
onsite review of each eligible entity at least once during each 3-year period. For each newly
designated entity, the lead agency must complete an onsite review after the completion of the
first year in which the entity received CSBG funds. The lead agency must also conduct followup
reviews of entities that fail to meet the goals, standards, and requirements established by the
State. Finally, the lead agency must conduct other reviews, as appropriate. Lead agencies
conduct these reviews to determine whether entities meet the State’s performance goals,
administrative standards, financial requirements, and other requirements.




                                               1
As part of its implementation of the Recovery Act, ACF issued CSBG Information
Memorandum 112 on August 18, 2009. The memorandum required lead agencies to review risk
assessments conducted by the CAAs and to provide the risk assessments to ACF with comments.

Office of Inspector General Audits

On December 31, 2009, we issued a memorandum 1 to ACF alerting it that CSBG program funds,
made available under the Recovery Act, may be at risk for fraud, waste, and abuse at certain
CAAs that State agencies designated as “vulnerable” or “in crisis.” As part of a nationwide
series of reviews, we will be issuing separate reports on the financial capability of three CAAs in
West Virginia.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency established adequate internal controls
for assessing and monitoring regular and Recovery Act CSBG funds provided to CAAs.

Scope

Our review covered the period April 1, 2009, through March 31, 2010. We limited our review to
the State agency’s internal controls that pertained directly to our objective.

We performed our fieldwork during June 2010 at the State agency’s offices in Charleston, West
Virginia.

Methodology

To accomplish our objective, we:

    •   reviewed relevant Federal laws, regulations, and guidance;

    •   reviewed the State agency’s application and plan for Recovery Act CSBG funds;

    •   interviewed State agency officials and reviewed the policies, procedures, and controls
        related to oversight of the CAAs;

    •   reviewed the State agency’s files on its full onsite reviews of all the CAAs;

    •   reviewed the CAAs’ annual Office of Management and Budget Circular A-133 audit
        reports for FYs ended 2007, 2008, or 2009; and



1
 “Alert: Community Service Block Grant Recovery Act Funding for Vulnerable and In-Crisis Community Action
Agencies” (A-01-09-02511).

                                                     2
   •   reviewed the risk assessments that the State agency submitted to ACF for all CAAs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
conclusions based on our audit objective.

                                   RESULTS OF REVIEW

The State agency established effective internal controls for assessing and monitoring regular and
Recovery Act CSBG funds provided to CAAs. The State agency employed a CSBG Recovery
Act Administrator responsible for the specific requirements of the Recovery Act, including
compliance with reporting requirements and separate tracking of funds. The State agency
conducted full onsite reviews at the 16 CAAs during the 3-year period and maintained frequent
contact with CAAs. The State agency provided supporting documents to show that it followed
its internal controls, and that its internal controls exceeded minimum requirements to ensure that
Recovery Act funds were spent on a timely basis for planned eligible services. As required by
CSBG Information Memorandum 112, the State agency reviewed risk assessments conducted by
CAAs and provided the risk assessments to ACF with comments.




                                                3
